No. ______
In the

Supreme Court of the United States
__________________
CORA KERTON,
Petitioner,
v.
SOCIETY HILL AT DROYERS POINT CONDOMINIUM
ASSOCIATION, LANDSCAPE MAINTENANCE SERVICE,
JOHN DOES 1-20, JANE DOES 1-20, ABC
CORPORATIONS A THROUGH Z,
Respondents.
__________________
On Petition for Writ of Certiorari
to the New Jersey Supreme Court

__________________
PETITION FOR WRIT OF CERTIORARI
__________________
Luretha M. Stribling
Counsel of Record
Luretha M. Stribling, LLC
133 Westfield Avenue, Suite 4
Clark, NJ 07066
(732) 956-0010
lmstribling@verizon.net
Counsel for Petitioner

Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
THE QUESTIONS PRESENTED
1. Whether there was engagement in abuse of
discretion and misapplication of the summary
judgment standard at the Superior Court of New
Jersey, Trial Court which was adopted by the New
Jersey Appellate Court?
2. Whether the Court disregarded Petitioner’s prima
facie case of negligence on the part of the
Defendant’s Society Hill at Droyers Point
Condominium Association and Landscape
Maintenance Service?
3. Whether the Court acted in an arbitrary and
capricious fashion in failing to apply the
Condominium Act of New Jersey and the tenets of
the statute which require liability coverage as
persons on the property for business reasons might
sustain an injury and make a claim?
4. Whether the Supreme Court of New Jersey accepted
erroneous applications of the net opinion rule to the
expert report of George Sosnowski, Snow Removal
Expert by the Trial Court and then the Appellate
Court?

ii
LIST OF PARTIES
The Petitioner and Appellant below is Cora Kerton.
The Respondents and Appellees below are Society
Hill at Droyers Point Condominium Association,
Landscape Maintenance Services, John Does 1-20, Jane
Does 1-20, ABC Corporations A Through Z.
CORPORATE DISCLOSURE
Cora Kerton is an individual and is not a
corporation.
DISCLOSURE OF LOWER
COURT PROCEEDINGS
Superior Court of New Jersey, Hudson County
Courthouse, Civil Division, Docket No. HUD-L-442515, Hon. Francis B. Schultz, JSC, Motion for Summary
Judgment by Defendants decided on May 12, 2017 and
denied.
Superior Court of New Jersey, Hudson County
Courthouse, Civil Division, Docket No. HUD-L-442515, Mediation Proceeding conducted on May 18, 2017.
Superior Court of New Jersey, Hudson County
Courthouse, Civil Division, Docket No. HUD-L-442515, Hon. Francis B. Schultz, JSC, Motion for Summary
Judgment decided on July 7, 2017 and granted.
Superior Court of New Jersey, Hudson County
Courthouse, Civil Division, Docket No. HUD-L-442515, Motion for Reconsideration decided on August 4,
2017 and denied.

iii
Superior Court of New Jersey, Appellate Division, Civil
Division, Docket No. A-005428-16T3, Appeal of Trial
Court Decisions decided on October 1, 2018 affirming
the Trial Court.
Superior Court of New Jersey, Supreme Court of New
Jersey, Civil Division, Docket No. 081973, Petition for
Certification of Appellate Court, Petition for
Certification was denied on March 8, 2019.

iv
TABLE OF CONTENTS
THE QUESTIONS PRESENTED . . . . . . . . . . . . . . . i
LIST OF PARTIES. . . . . . . . . . . . . . . . . . . . . . . . . . . ii
CORPORATE DISCLOSURE . . . . . . . . . . . . . . . . . . ii
DISCLOSURE OF LOWER
COURT PROCEEDINGS . . . . . . . . . . . . . . . . . . . ii
TABLE OF AUTHORITIES . . . . . . . . . . . . . . . . . viii
OPINIONS BELOW. . . . . . . . . . . . . . . . . . . . . . . . . . 1
JURISDICTIONAL STATEMENT . . . . . . . . . . . . . . 1
STATUTORY PROVISION INVOLVED . . . . . . . . . 1
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . 3
REASONS FOR GRANTING THE PETITION . . . . 7

v
POINT I
THE TRIAL COURT ENGAGED IN ABUSE OF
DISCRETION AND ACTED IN A MANNER
WHICH WAS ARBITRARY, CAPRICIOUS AND
UNREASONABLE AS THE COURT DENIED
DEFENDANTS MOTION FOR SUMMARY
JUDGMENT ON LIABILITY AS A RESULT OF
THE EXPERT REPORT, THEN ENCOURAGED
THE DEFENDANTS TO FILE A SECOND
MOTION FOR SUMMARY JUDGMENT AND
GRANTED THE SECOND MOTION FOR
SUMMARY JUDGMENT ON THE SAME
FACTS AND IGNORED SIGNIFICANT
DOCUMENTARY, EVIDENTIARY MATERIAL
WHICH FURTHER SUPPORTED LIABILITY
OF THE DEFENDANTS . . . . . . . . . . . . . . . . . . . 8
POINT II
THE TRIAL COURT ISSUED A DECISION
WHICH WAS ARBITRARY, CAPRICIOUS AND
UNREASONABLE BECAUSE THIS COURT
FAILED TO FIND SOCIETY HILL AT
DROYERS POINT CONDOMINIUM
ASSOCIATION LIABLE PER THE
CONDOMINIUM ACT OF NEW JERSEY FOR
THE TRAUMATIC INJURIES SUSTAINED BY
PETITIONER. THE APPELLATE COURT
ERRED IN THE AFFIRMANCE OF THE
TRIAL COURT DECISION . . . . . . . . . . . . . . . . 16

vi
POINT III
THE TRIAL COURT FINDING CONFIRMED
BY THE APPELLATE COURT THAT THE
EXPERT REPORT OF GEORGE SOSNOWSKI
REPRESENTED A NET OPINION WAS IN
ERROR BASED ON ANALYSIS OF THE
EXPERT REPORT PRESENTED BY GEORGE
SOSNOWSKI. THIS REPORT WAS BASED ON
THE SKILLS, EXPERTISE, TRAINING,
EDUCATION AND EXPERIENCE OF
GEORGE SOSNOWSKI WHICH WAS
MARRIED TO THE FACTS OF THIS CASE . . 21
POINT IV
THE TRIAL AND APPELLATE COURTS
IGNORED THE COMMON KNOWLEDGE
DOCTRINE WHICH WAS APPLICABLE TO
THIS CASE AS THE ISSUE OF SNOW
REMOVAL IS NOT TECHNICAL NOR
COMPLICATED AND THE CONSEQUENCES
OF THE FAILURE TO REMOVE SNOW AND
ICE IS WITHIN THE UNDERSTANDING OF
THE AVERAGE PERSON . . . . . . . . . . . . . . . . . 28
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 31
APPENDIX
Appendix A Order in the Supreme Court of New
Jersey
(March 8, 2019) . . . . . . . . . . . . . . . App. 1

vii
Appendix B Opinion in the Superior Court of New
Jersey, Appellate Division
(October 1, 2018) . . . . . . . . . . . . . . App. 2
Appendix C Order in the Superior Court of New
Jersey, Hudson County-Law Division
(August 4, 2017) . . . . . . . . . . . . . App. 12
Appendix D Order in the Superior Court of New
Jersey, Hudson County-Law Division
(July 7, 2017) . . . . . . . . . . . . . . . App. 14
Appendix E Order in the Superior Court of New
Jersey, Hudson County-Law Division
(May 12, 2017) . . . . . . . . . . . . . . App. 16

viii
TABLE OF AUTHORITIES
CASES
Anderson et al v. Liberty Lobby et al,
477 U.S. 242 (1986). . . . . . . . . . . . . . . . . . . . . . . . 9
Atkin v. Bridgeway,
(N.J. Super. 2014) . . . . . . . . . . . . . . . . . . . . . . . . 29
Bayshore Sew. Co. v. Dept. of Env. N.J.,
122 N.J. Super. 184 (1973) . . . . . . . . . . . . . . . . . 10
Borough of Saddle River v. 66 E. Allendale LLC,
216 N.J. 115 (2013) . . . . . . . . . . . . . . . . . . . . . . . 22
Brill v. Guardian Life Insurance Company Of
America,
142 N.J. 520 (1995) . . . . . . . . . . . . . . . . . . . . . . . . 9
Bucewlew v. Grossbard,
87 N.J. 512 (1981) . . . . . . . . . . . . . . . . . . . . . 21, 22
Castroll v. Franklin Township,
161 N.J. Super. 190 (App. Div. 1978). . . . . . . . . 22
Dolson v. Anastasia,
55 N.J. 2 (1969) . . . . . . . . . . . . . . . . . . . . . . . . . . 10
Earnest v. Bedilion,
(N.J. Super. 2014) . . . . . . . . . . . . . . . . . . . . . . . . 10
Estate of Chin v. St. Barnabas Med. Ctr.,
160 N.J. 454 (1999) . . . . . . . . . . . . . . . . . . . . . . . 29
Jacoby v. Jacoby,
427 N.J. Super. 109 (App. Div. 2012). . . . . . . . . 10

ix
Judson v. Peoples Bank & Trust Co.,
17 N.J. 67 (1954) . . . . . . . . . . . . . . . . . . . . . . . 9, 10
Klimko v. Rose,
84 N.J. 496 (1980) . . . . . . . . . . . . . . . . . . . . . . . . 29
McComish v. DeSoi,
42 N.J. 274 (1964) . . . . . . . . . . . . . . . . . . . . . . . . 26
Parker v. Goldstein,
78 N.J. Super. 472 (App. Div.) . . . . . . . . . . . . . . 22
Pearl Assurance Co. Ltd. v. Watts,
69 N.J. Super. 198 (App. Div. 1961). . . . . . . . . . 10
Polzo v. County of Essex,
196 N.J. 569 (2008) . . . . . . . . . . . . . . . . . . . . . . . 23
Rempfer v. Deerfield Packing Corp.,
4 N.J. 135 (1950) . . . . . . . . . . . . . . . . . . . . . . . . . 22
Rosenberg v. Cahill,
99 N.J. 318 (1985) . . . . . . . . . . . . . . . . . . . . . . . . 29
Rowe v. Mazel Thirty, LLC,
209 N.J. 35 (N.J. 2012) . . . . . . . . . . . . . . . . . . . . 17
Sanzari v. Rosenfeld,
34 N.J. 128 (1961) . . . . . . . . . . . . . . . . . . . . . . . . 29
Schueler v. Strelinger,
43 N.J. 330 (1964) . . . . . . . . . . . . . . . . . . . . . . . . 28
Smith v. Kris-Bal Realty, Inc.,
242 N.J. Super. 346 (App. Div. 1990). . . . . . . . . 26
Stanley Co. of America v. Hercules Powder Co.,
16 N.J. 295 (1954) . . . . . . . . . . . . . . . . . . . . . . . . 22

x
State v. Brown,
118 N.J. 595 (1990) . . . . . . . . . . . . . . . . . . . . . . . 10
Townsend v. Pierre,
(A-2-13)(072357) (2015) . . . . . . . . . . . . . . . . 22, 23
NEW JERSEY STATUTES
N.J.S.A. 46:8B-1 TO 38 . . . . . . . . . . . . . . . . . . . . 7, 16
N.J.S.A. 46:8B-3 . . . . . . . . . . . . . . . . . . . . . . . . . 16, 17
N.J.S.A. 46:8B-14 . . . . . . . . . . . . . . . . . . . . . . . . . . . 17
N.J.S.A. 46:8B-14(a). . . . . . . . . . . . . . . . . . . . . . . . . 16
N.J.S.A. 46:8B-14(e) . . . . . . . . . . . . . . . . . . . . . . . . . 16
N.J.S.A. 2A:62A . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
N.J.S.A. 2A:62A-21 . . . . . . . . . . . . . . . . . . . . . . . . . 18
N.J.S.A. 2A:62A-22 . . . . . . . . . . . . . . . . . . . . . . . 7, 18
NEW JERSEY ADMINISTRATIVE CODE
N.J.A.C. 5:10 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24
N.J.A.C. 5:10(a) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24
N.J.A.C. 5:10(a)(3) . . . . . . . . . . . . . . . . . . . . . . . . . . 25
N.J.A.C. 5:10(a)(4) . . . . . . . . . . . . . . . . . . . . . . . . . . 25
N.J.A.C. 5:10-6.4 . . . . . . . . . . . . . . . . . . . . . . . . . . . 25
NEW JERSEY RULES OF EVIDENCE
N.J. Rules of Evidence 702 . . . . . . . . . . . . . . . . . . . 21
N.J. Rules of Evidence 703 . . . . . . . . . . . . . . . . 21, 22

xi
NEW JERSEY COURT RULES
R. 1:7-4 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
R. 4:46-2(c) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8, 9, 23
BOOKS
Moore’s Federal Practice (2005) . . . . . . . . . . . . . . . . 9
Rules Governing the Courts of the State of New
Jersey (2012) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
WEBSITES
http://www.cdc.gov/niosh/updates/upd-2-12-18
html . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7

1
OPINIONS BELOW
The Supreme Court of New Jersey entered a final
Order on the date of March 8, 2019. The Appellate
Court of New Jersey received the Notice of Appeal
which was timely filed in August 2017.
JURISDICTIONAL STATEMENT
The United States Supreme Court has jurisdiction
because the decisions that were entered are from the
state courts of New Jersey with the final decision
entered on March 8, 2019 from the Supreme Court of
New Jersey. The Petition for Writ of Certiorari is filed
after a decision was entered by the Supreme Court of
New Jersey which denied the Petition for Certification.
The Supreme Court of the United States has
jurisdiction as this Court can review decisions of the
state court of last resort. The claims presented fall
under the laws of the United States, 28 USC, Section
1331. This Court has jurisdiction because this
Petitioner seeks redress and recovery of damages for
deprivation of rights and privileges conferred as a
result of being a citizen of these United States. The
Supreme Court of the United States has jurisdiction of
this matter pursuant to 28 USC Section 1291 also.
STATUTORY PROVISION INVOLVED
The United States District Court has original
subject matter jurisdiction of the claims falling under
the laws of the United States, 28 USC Section 1331.
This court has jurisdiction because the Petitioner seeks
redress and recovery of damages for deprivation of
rights and privileges conferred as the result of being a

2
citizen of the United States. Venue is proper in this
judicial district under 28 USC Section 1391(b) because
the Respondents have an office, conduct business and
can be found in this district and the causes of action
arose and the acts and omissions complained of
occurred here. 28 USC Section 1391(b) Venue in
general provides that a civil action may be brought in
(1) a judicial district in which any defendant resides, if
all defendants are residents of the State in which the
District is located. (2) a judicial district in which a
substantial part of the events or omissions giving rise
to the claim, occurred, or a substantial part of property
that is the subject of the action is situated: or (3) if
there is no district in which an action may otherwise be
brought as provided in this section, any judicial district
in which any defendant is subject to the court’s
personal jurisdiction with respect to such action.
28 USC Section 1391(c) Residency for all Venue
Purposes provides (1) a natural person, including an
alien lawfully admitted for permanent residence in the
United States shall be deemed to reside in the judicial
district in which that person is domiciled (2) an entity
with the capacity to sue and be sued in its common
name under applicable law, whether or not
incorporated, shall be deemed to reside, if a defendant,
in any judicial district in which such defendant is
subject to the court’s personal jurisdiction with respect
to the civil action in question and, if a plaintiff, only in
the judicial district in which it maintains its principal
place of business; and (3) a defendant not resident in
the United States may be sued in any judicial district
and the joinder of such a defendant shall be

3
disregarded in determining where the action may be
brought with respect to other defendants.
28 USC Section 1291, Final Decision of the State
Court of last resort are properly filed at the United
States Supreme Court. The United States Supreme
Court shall have jurisdiction of appeals from all final
decisions of the district courts of the United States, the
United States District Court for the district of the
Canal Zone, the district court of Guam, and the district
court of the Virgin Islands, except where a direct
review may be had in the Supreme Court. The
jurisdiction of the United States Court of Appeals for
the Federal Circuit shall be limited to the jurisdiction
described in sections 1292(c) and (d)and 1295 of this
title.
STATEMENT OF THE CASE
Cora Kerton was a police officer employed by the
Police Department in Jersey City, New Jersey. Cora
Kerton (Kerton or Petitioner) had been a police officer
for fifteen years in 2015. Petitioner worked from
7:00 A.M. to 3:00 P.M. On March 5, 2015, Petitioner
was dispatched to Society Hill at Droyer’s Point
Condominium Community (Society Hill) to provide
assistance for an unconscious male. Petitioner was
assigned to this call along with Officers Ernest Vidal
(Vidal), Joseph Vangelakos (Vangelakos) and Abel
Tavares (Tavares). The Officers were dispatched to 7
Lee Court in Jersey City which is in the Society Hill at
Droyers Point Condominium Community. Petitioner
and the officers arrived at Society Hill at 2:59 P.M.
Petitioner arrived at 7 Lee Court in a police cruiser and
the other officers arrived in an unmarked car. The

4
ambulance squad from Jersey City Medical Center was
also dispatched and was on scene with two Emergency
Medical Technicians (EMTs) in the ambulance. It had
snowed earlier in the day and the snow had tapered off
at 3:00 P.M. The total accumulation of snow for the
date of March 5, 2015 was 6.7 inches. After Petitioner
and the other police officers provided assistance at 7
Lee Court and the patient had been placed in the
ambulance for transport to Jersey City Medical Center,
Petitioner walked to her police cruiser.
Petitioner slipped on the snow covered street,
became airborne and landed on her back. Petitioner hit
her head and the entire posterior aspect of her body on
the ground. The fall was witnessed by Officers Tavares,
Vangelakos and Abel. The police officers alerted the
EMTs that assistance was needed and Petitioner was
placed in the ambulance after the patient occupying the
ambulance was removed. Another ambulance was
called for the stabilized patient. Petitioner complained
of loss of feeling in her left foot and left leg and she
complained of neck pain. Petitioner was taken to Jersey
City Medical Center and admitted to the Trauma Unit.
An examination and diagnostic tests were done to
determine if she had broken any bones. Petitioner
initially had no feeling in her arms or legs and was
unable to move her arms and legs. Gradually the
feeling returned to her upper body. In the days after all
diagnostic tests had been completed, physical therapy
was ordered. Petitioner was unable to stand or walk in
physical therapy and when she was stood up, Petitioner
repeatedly fell. Petitioner had no control of her bowels
or bladder and a foley catheter was inserted in her
bladder to drain her urine. Petitioner was subjected to

5
a complete and thorough assessment at Jersey City
Medical Center and was diagnosed with concussion,
spinal cord contusion as well as Cauda Equina
syndrome. Petitioner after a stay of three weeks at
Jersey City Medical Center was transferred to Kessler
Institute of Rehabilitation in West Orange, New
Jersey. Petitioner was admitted to the Spinal Cord
Injury Unit, and was diagnosed with Incomplete
Paraplegia, Neurogenic Bladder, Neurogenic Bowels,
Traumatic Brain Injury, Depression, Post Traumatic
Stress Disorder and Adjustment Disorder. Petitioner
was discharged home after a stay of two months at
Kessler and continues to grapple with the noted
diagnoses. The traumatic injuries that Petitioner
suffered were the result of the negligence of the
Defendants who failed to engage in snow removal at
Society Hill at Droyers Point Condominium
Community per the contract in place for snow removal.
Defendants failed to abide by the tenets of the
Condominium Act of New Jersey as well.
Petitioner filed a Complaint and Demand for Jury
on or about October 26, 2015 at the Hudson County
Superior Court. The Defendants, Society Hill at
Droyers Point Condominium Association (Society Hill)
and Landscape Maintenance Service (Landscape
Maintenance) filed an Answer in November 2015. An
extension of discovery was granted by the Court with
consent of Counsel. A motion to remove the matter
from Arbitration was denied on May 12, 2017. A
Motion for Summary Judgment filed by the
Defendants, was opposed by the Plaintiff and was
denied by the Court on May 12, 2017. Arbitration took
place on the date of May 18, 2017. The Defendants filed

6
a second Motion for Summary Judgment which was
opposed by the Plaintiff and was granted by the Court
on July 7, 2017. The Plaintiff filed a Motion for
Reconsideration which was opposed by the Defendants
and was denied by the Court on August 7, 2017. A
Notice of Appeal was filed in August of 2017. The
Appellate Court heard oral argument on the date of
September 13, 2018 and entered a decision on the date
of October 1, 2018. The decision affirmed the decision
of the trial court. A Petition for Certification was timely
filed in October of 2018 and was decided on March 8,
2019. The Petition for Certification was denied.
The cognizable claim presented in the Complaint
were negligence and failure to apply the tenets of the
Condominium Act of New Jersey which address
liability to this matter. It is requested that the United
States Supreme Court review this Petition for Writ of
Certiorari and reverse and remand this matter to the
Superior Court of New Jersey with the directive to
proceed to trial where the trier of fact can make a
determination on the merits of this case. The Petitioner
met all elements of the law to support the claim of
negligence in this matter. In addition, there was a
failure to apply the Condominium Act of New Jersey to
this case, the court decision that the expert in snow
removal provided a net opinion was in error and the
common knowledge doctrine was disregarded by the
Court. A jury could find for the Petitioner on this
negligence claim. Factual issues of a material nature as
here are to go to a jury and are to be decided by a jury.

7
REASONS FOR GRANTING THE PETITION
The Petitioner presented substantial and significant
questions which compel an analysis of how this society
addresses the law enforcement officer who sustains a
traumatic injury in the line of duty. The Centers for
Disease Control at the National Institute for
Occupational Safety and Health (NIOSH) undertook a
study of nonfatal injuries of law enforcement officers
and documented that about 669,100 law enforcement
officers were treated at emergency departments for
nonfatal injuries between 2003 and 2014.
<http://www.cdc.gov/niosh/updates/upd-2-12-18.html>
The study found that the rate of nonfatal injuries
increased over the twelve year period studied, there
was an increase in assault injuries of 10% annually
during this twelve year period and the other injuries
included assaults with violent acts, unintentional falls,
bodily reactions and exertion from running or other
repetitive motions and motor vehicle accidents. Id.
In addressing the issue of police officers and other
first responders being injured on the job, New Jersey
enacted N.J.S.A. 2A:62A and N.J.S.A. 2A:62A-22.
These statutes gave police officers and other first
responders the right to file lawsuits when injuries were
sustained on the job. In this matter, implicated also is
the Condominium Act of New Jersey as Petitioner
sustained an injury at a condominium community. The
New Jersey Condominium Act is codified at N.J.S.A.
46:8B-1 TO 38. The tenets of the Condominium Act of
New Jersey require that condominium communities
maintain liability insurance in the event that someone

8
on the property of the condominium community
sustains an injury.
It is imperative that the United States Supreme
Court address this important issue of on the job
injuries of police officers and that the Supreme Court
enforce the tenets of the Condominium Act of New
Jersey. The potential for injury affects a large segment
of the population that work in the position of police
officer or in roles as first responders.
POINT I
THE TRIAL COURT ENGAGED IN ABUSE
OF DISCRETION AND ACTED IN A
MANNER WHICH WAS ARBITRARY,
CAPRICIOUS AND UNREASONABLE AS
THE COURT DENIED DEFENDANTS
MOTION FOR SUMMARY JUDGMENT ON
LIABILITY AS A RESULT OF THE EXPERT
REPORT, THEN ENCOURAGED THE
DEFENDANTS TO FILE A SECOND
MOTION FOR SUMMARY JUDGMENT
AND GRANTED THE SECOND MOTION
FOR SUMMARY JUDGMENT ON THE
SAME
FACTS
AND
IGNORED
SIGNIFICANT
DOCUMENTARY,
EVIDENTIARY MATERIAL WHICH
FURTHER SUPPORTED LIABILITY OF
THE DEFENDANTS
The Summary Judgment standard is set out at R.
4:46-2(c), Proceedings and Standards on Motions, and
provides, the judgment or order sought shall be
rendered forthwith if the pleadings, depositions,

9
answers to interrogatories and admissions on file,
together with the affidavits, if any show that there is
no genuine issue as to any material fact challenged and
that the moving party is entitled to a judgment or order
as a matter of law. An issue of fact is genuine only if,
considering the burden of persuasion at trial, the
evidence submitted by the parties on the motion,
together with all legitimate inferences therefrom
favoring the non-moving party, would require
submission of the issue to the trier of fact. The court
shall find the facts and state its conclusions in
accordance with R. 1:7-4. R. 4:46-2(c)
A court should grant summary judgment when the
pleadings, depositions, answers to interrogatories and
admissions on file, together with the affidavits, if any
show that there is no genuine issue as to any material
fact challenged and that the moving party is entitled to
judgment or order as a matter of law. Brill v. Guardian
Life Insurance Company of America, 142 NJ 520, 529
(1995). Summary judgment will not be appropriate if
the dispute is about a material fact and is genuine and
could result in a jury after hearing the evidence
returning with a verdict for the nonmoving party.
Anderson et al v. Liberty Lobby, Inc. , et al, 477 US 242
(1986). The question is whether the evidence presents
a sufficient disagreement that would then require
submission to a jury or whether it is so one-sided that
one party must prevail as a matter of law. Id. at 247252. The movant has the burden to exclude any
reasonable doubt as to the existence of any genuine
issue of material fact. Moore’s Federal Practice, par.
56-15(3), cited in Judson v. Peoples Bank & Trust Co.,
17 NJ 67, 74 (1954). The conclusion that there are no

10
material issues in dispute cannot be arrived at because
the opposing evidence is incredible, as credibility is an
issue for the trier of fact to decide. Id. at 75.
The standard in viewing a motion for summary
judgment is expressed by the term making a prima
facie case or defense and the movant is entitled to
judgment if based on the full record, the adverse party,
who is entitled to have the facts and inferences viewed
most favorably has failed to demonstrate the existence
of a dispute which would result in a decision favoring
the non-movant. Rules Governing the Courts of the
State of New Jersey, p. 1767 (2012).
In the law, arbitrary and capricious means having
no rational basis. Bayshore Sew. Co. v. Dept. of Env.
NJ, 122 N.J. Super. 184, 199 (1973). Arbitrary and
capricious means willful and unreasonable action,
without consideration and in disregard of
circumstances. Id. at 199. The Appellate Court owes no
deference to the trial court when a review of and
interpretation of the law is required. Earnest v.
Bedilion, p. 6 (N.J. Super. 2014). See also, State v.
Brown, 118 N.J. 595 (1990); Dolson v. Anastasia, 55
N.J. 2, 7 (1969); Pearl Assurance Co. Ltd. v. Watts, 69
N.J. Super. 198, 205 (App. Div. 1961).
A trial court award will be disturbed if it is
manifestly unreasonable, arbitrary or completely
contrary to the evidence and is the result of whim or
caprice. Jacoby v. Jacoby, 427 N.J. Super. 109, 116
(App. Div. 2012).
In Kerton v. Society Hill, the wealth of
documentary, evidentiary material illustrated that

11
there were material issues in dispute. Petitioner made
a prima facie case of negligence with the Defendants
bearing complete liability for the catastrophic injuries
sustained by the Petitioner. Prominent among the
supporting documents was the expert report of George
Sosnowski, Snow Removal Expert. The expert report
made it clear why the Defendants were liable. When
the Court denied the Defendants’ Motion for Summary
Judgment, the Court noted on the Order “This motion
is denied without prejudice. But for the Plaintiffs
Expert Report which was not ruled upon, the motion
would have been granted.” The basis of the Motion for
Summary Judgment was said by Defendants to be on
the issue of liability, yet there was no rebuttal of the
expert report of George Sosnowski. The expert report
made it clear that there were material issues in
dispute. During oral argument, the Court brought up
the subject of net opinion sua sponte and told
Defendants’ counsel that there was a failure to discuss
net opinion of the expert report of George Sosnowski.
The expert report was not a net opinion and instead
represented a detailed analysis with conclusions based
on the expert’s skills, knowledge, education, training
and expertise. The discussion of the expert report in
the same sentence with a suggestion of net opinion was
arbitrary, capricious and unreasonable. The expert
report supported the position that there were material
issues in dispute. The other documentary evidentiary
material which supported a finding for the Petitioner
and illustrated the complete liability of the
Respondents were the Complaint, Petitioner and
Respondents’ Answers to Interrogatories (Pa270,
Answers to Interrogatories), Petitioner’s deposition
testimony (Pa153, Kerton Deposition Testimony),

12
the depositions of Officers Vangelakos (Pa68,
Vangelakos Deposition), Vidal (Pa88, Vidal
Deposition) and Tavares (Pa49, Tavares
Deposition), the deposition testimony of Michael
Pelligrini and Adam Bernat of Landscape Maintenance
Service which supported complete liability of
Landscape Maintenance Service (Pa228, Pelligrini
Deposition; Pa364, Bernat Deposition) The
depositions also supported liability of Defendants. Mr.
Pelligrini testified that he received an alert about the
snow forecast and went to Society Hill at Droyer’s
Point. The two inches of snow had fallen and was
present on the ground which triggered the contract
requirement to clear the roads within Society Hill at
Droyer’s Point Condominiums continuously during the
snow event. (Pa228, Pelligrini Deposition, T59:1115, T28:11-17). Pelligrini testified that he contacted
staff to come in for snow removal. (Pa228, Pelligrini
Deposition, T28:11-17). Pelligrini testified that snow
removal at Society Hill required the help of 25 people,
yet the attendance sheets reflected only three people
working at Society Hill on the date of March 5, 2015.
(Pa228, Pelligrini Deposition 1/5/17, T18:1-19;
Pa265, Landscape Maintenance Services
Attendance Sheets). Pelligrini testified that he was
present on Lee Court all day removing snow, yet he
was not seen on Lee Court and the ground conditions
made it clear that snow had not been removed and
snow removal equipment was absent from Lee Court.
(Pa228, Pelligrini Deposition, T28:11-17; Pa68,
Vangelakos Deposition, T16:12-25, T17:1-2;Pa49,
Tavares Deposition, T16:12-25, T17:1-2, T40:12-21)
Society Hill at Droyers Point Condominium Association
personnel are liable as personnel failed to communicate

13
the need for snow removal to Landscape Maintenance
Service personnel and failed to demand that the
contract for snow removal to be performed. (Pa228,
Pelligrini Deposition, 1/5/17, T37:18-25, T38:1-5)
The attendance documents for Landscape Maintenance
Services on March 5, 2015 at Society Hill illustrated
that there were only three people working on this 25
street condominium community removing the snow
with one snow plow. (Pa265, Landscape
Maintenance Service Attendance Sheets, Pa268,
Map of Society Hill). The management personnel at
Society Hill engaged their insurance company, York
who undertook an investigation of the conditions at
Society Hill on March 5, 2015 and concluded that
personnel from Landscape Maintenance Service had
been on site at 8:00 A.M. but that they had not
returned until 11:00 P.M. on March 5, 2015. The report
from George Sosnowski, an expert in snow removal
management as well as the required cleanup
requirements for snow removal companies supported
the point that Landscape Maintenance Service was
negligent and failed to follow their contract for snow
removal as well as the standards in the snow removal
industry which resulted in the injuries sustained by the
Petitioner. (Pa280, George Sosnowski Expert
Report). The expert report from Dr. Todd
Linsenmeyer made the causal connection between the
Petitioner’s Neurogenic Bladder and the spinal cord
injury which was sustained by the Petitioner when she
fell at Society Hill on March 5, 2015. (Pa324,
Lindsenmeyer Report). The medical records from
Jersey City Medical Center on March 5, 2015 where
Petitioner was taken immediately after the fall at
Society Hill diagnosed her injuries as consistent with

14
injuries resulting from the fall at Society Hill. (Pa146,
Jersey City Medical Center Trauma Notes). When
Petitioner was transferred to Kessler Institute of
Rehabilitation, the physicians there identified and
delineated the injuries which were attributed to the fall
at Society Hill. (Pa327, Kessler Institute of
Rehabilitation Admission). The expert reports of Dr.
Jakob Steinberg, Psychologist as well as the office
treatment records support the psychological trauma
suffered by the Petitioner which are the direct result of
the fall at Society Hill at Droyers Point. (Pa334,
Jakob Steinberg Records). When the initial Motion
for Summary Judgment was denied, the matter went
to Mandatory Arbitration. The Arbitrator on reviewing
this matter and hearing argument from counsel,
determined that the Defendants were 100% liable and
the monetary award was determined to be multimillion dollar award. (Pa15, Arbitration Award of
May 18, 2017).
The documentary, evidentiary material before the
Court made it clear that the Defendants were liable.
Further, the expert report of George Sosnowski could
not be deemed to be a net opinion nor was that the
argument made by the Defendants. The record
supported the denial of the Motion for Summary
Judgment. The Court denied the Motion for Summary
Judgment and said to the Defendants that there had
been no discussion of net opinion, thus, suggesting that
the report was a net opinion. The Court encouraged the
filing of a second motion for summary judgment. When
the Court heard oral argument of the second Motion for
Summary Judgment, it was granted by the Court
ruling that the expert report was a net opinion.

15
The Court in ignoring the overwhelming evidence of
liability of the Defendants acted in an arbitrary and
capricious as well as unreasonable manner. The Court
ignored the decision reached by the Arbitrator which
found Defendants to be 100% liable. The Court failed to
state how the expert report of George Sosnowski was a
net opinion and failed to state what cases were relied
upon in ruling that the expert report of George
Sosnowski was a net opinion. In ignoring what is
required by the Summary Judgment rule, the Court
failed in grant of favorable inferences for the nonmovant and failed to state what cases were relied upon
in making this ruling on net opinion. The Court failed
to accurately assess the facts in the record, for instance
when the court stated that the Defendants were
performing the contract and were on site working when
the road conditions present on that day as well as the
absence of Landscape Maintenance employees from the
site were documented in the record. Finally, the Court
ignored Defendants liability per the Condominium Act
of New Jersey.
The expert report of George Sosnowski was not a
net opinion and this inaccuracy which was affirmed by
the Appellate Court was a miscarriage of justice. There
was a wealth of documentary, evidentiary material
which supported the fact that Defendants were liable
for the catastrophic injury suffered by Petitioner. The
record made it abundantly clear that there were
material issues in dispute which required that this
matter go to trial. It is requested that the United
States Supreme Court grant the Petition for Writ of
Certiorari, vacate the decisions of the state courts and

16
remand this matter for presentment to a jury for
adjudication on the merits of the case.
POINT II
THE TRIAL COURT ISSUED A DECISION
WHICH WAS ARBITRARY, CAPRICIOUS
AND UNREASONABLE BECAUSE THIS
COURT FAILED TO FIND SOCIETY HILL
AT DROYERS POINT CONDOMINIUM
ASSOCIATION LIABLE PER THE
CONDOMINIUM ACT OF NEW JERSEY
FOR THE TRAUMATIC INJURIES
SUSTAINED BY PETITIONER. THE
APPELLATE COURT ERRED IN THE
AFFIRMANCE OF THE TRIAL COURT
DECISION
The Condominium Act in New Jersey is codified by
statute at N.J.S.A. 46:8B-1 to 38. N.J.S.A. 46:8B-14(a)
provides that a homeowners association is responsible
for the maintenance of the common elements. N.J.S.A.
46:8B-14(a). The association shall be responsible for the
maintenance, repair, replacement, cleaning and
sanitation of the common elements. The Association is
also required to maintain insurance against liability for
personal injury and death for accidents occurring
within the common elements. N.J.S.A. 46:8B-14(e). The
common elements per the Condominium Act per
N.J.S.A. 46:8B-3 are noted in part as the following:
“(i) the land described in the master deed; (ii) as to any
improvement, the foundations, structural and bearing
parts, supports, main walls, roofs, basements, halls,
corridors, lobbies, stairways, elevators, entrances, exits
and other means of access, excluding any specifically

17
reserved or limited to a particular unit or group of
units; (iii) yards, gardens, walkways, parking areas
and driveways, excluding any specifically reserved or
limited to a particular unit or group of units;” N.J.S.A.
46:8B-3. Set out at N.J.S.A. 46:8B-14 are the
responsibilities of the Association and one of the
responsibilities is “the maintenance of insurance
against liability for personal injury and death for
accidents occurring within the common elements
whether limited or general and the defense of any
actions brought by reason of injury or death to person,
or damage to property occurring within such common
elements and not arising by reason of any act or
negligence of any individual unit owner. N.J.S.A.
46:8B-14.
Petitioner was on the grounds of Society Hill as an
invitee. Petitioner was on site to confer a benefit on a
resident of Society Hill who was unconscious and in
need of medical assistance and assistance from law
enforcement. Petitioner was parked in a common area,
specifically, the street outside of 7 Lee Court where she
fell. The liability of Society Hill was set forth per the
Condominium Act in New Jersey. In addition, there
was no preclusion to filing a lawsuit as the result of
injuries sustained as the Firemen’s Rule was vacated
in 2012.
Historically, the Fireman’s Rule prevented firemen
and other first responders from recovering for injuries
sustained when on the property of another during the
course of performing work. Rowe v. Mazel Thirty, LLC,
209 N.J. 35 (N.J. 2012). The dissatisfaction with the
firefighter’s rule resulted in the enactment of the

18
statutes, N.J.S.A. 2A:62A-21 and N.J.S.A. 2A:62A-22
which provide: In addition to any other right of action
or recovery otherwise available under law, whenever
any [emergency responder] suffers any injury, disease
or death while in the lawful discharge of his official
duties and that injury, disease or death is directly or
indirectly the result of the neglect, willful omission, or
willful or culpable conduct of any person or entity,
other than that [emergency responder’s] employer or
co-employee, the [emergency responder] suffering that
injury or disease, or, in the case of death, a
representative of that [emergency responder’s] estate,
may seek recovery and damages from the person or
entity whose neglect, willful omission, or willful or
culpable conduct resulted in that injury or death. The
rights, remedies and limitations accorded by the
provisions of this act are hereby declared to be in
addition to and cumulative of the rights, remedies and
limitations accorded under law and nothing herein
shall be construed to deny, abrogate or impair any such
statutory right, remedy or prohibition. N.J.S.A.
2A:62A-21 to 22. By the enactment of statutes, a
remedy was provided for firefighters and other first
responders sustaining injuries in the course of
performing their jobs.
In analysis of the cause of action of negligence, what
is required to make the case is the presence of a duty,
a breach of that duty and resultant injury or damages
which are the result of the breach. The finding of
negligence in this matter is easily made. Petitioner was
an invitee on the premises of Society Hill and was there
to confer a benefit on a resident there. As an invitee,
Petitioner had a right to be present and an expectation

19
that the premises would be in safe condition and that
she would be made aware of any unsafe conditions. The
statute cited above which provides protection for first
responders is applicable here and provides the basis for
the Petitioner to sue for the injuries sustained. The
tenets of the Condominium Act here in New Jersey
require that liability insurance be carried by
condominium associations for the very reason that
persons on the premises might sustain injury. The very
basis for liability insurance came to fruition on the date
of March 5, 2015 when the Petitioner, who was
rightfully on the premises of Society Hill sustained a
catastrophic injury. The Condominium Act supports a
finding of liability as there was a duty to invitees, and
in this case the Petitioner, there was a breach of that
duty and catastrophic injuries resulted from the
breach. The liability insurance which condominium
associations are required to have must be mandated to
pay for the injuries sustained by the Petitioner who
was on the premises to convey a benefit to a resident.
This issue has implications for a large segment of the
population of the United States who work as police
officers. As noted in the details of injuries sustained by
police officers, of the 669,100 injuries requiring medical
care, a number of the injuries are the result of
unintentional falls. The virtual ignoring of the
requirements of the Condominium Act of New Jersey
by the trial and Appellate Court did a major disservice
to the Petitioner. The failure of the trial court to find
liability of the Defendants per the Condominium Act
ignored a fundamental basis for liability and the trial
court centered a decision on a claim that the expert’s
report was a net opinion which was erroneous and
simultaneously ignored the elephant in the room which

20
was liability on the basis of the statutory requirements
of the Condominium Act. The Appellate Court failed to
find the courage to rule that the trial court
misinterpreted the net opinion rule and applied it to
this case in error. This appeals court failed to apply the
tenets of the Condominium Act to this case instead
claiming that there was no case law to support a
finding for the Petitioner. Justice was not served by the
error in court rulings and the Petition for Certification
was denied.
Ultimately, the Condominium Act was not given
any weight in the rulings entered at the state courts. It
is this Counsel’s belief that the decisions reached at the
state courts were in error and there should have been
a finding for the Petitioner per the tenets of the
Condominium Act of New Jersey. It is requested that
the United States Supreme Court grant the Petition for
Writ of Certiorari, vacate the determinations of the
state courts and remand this matter to the trial court
for trial and adjudication on the merits of the case.

21
POINT III
THE
TRIAL
COURT
FINDING
CONFIRMED BY THE APPELLATE
COURT THAT THE EXPERT REPORT OF
GEORGE SOSNOWSKI REPRESENTED A
NET OPINION WAS IN ERROR BASED ON
ANALYSIS OF THE EXPERT REPORT
PRESENTED BY GEORGE SOSNOWSKI.
THIS REPORT WAS BASED ON THE
S K ILLS , E XPERTISE, TRAINING,
EDUCATION AND EXPERIENCE OF
GEORGE SOSNOWSKI WHICH WAS
MARRIED TO THE FACTS OF THIS CASE
New Jersey Rules of Evidence 702, Testimony by
Experts provides, if scientific, technical or other
specialized knowledge will assist the trier of fact to
understand the evidence or to determine a fact in issue,
a witness qualified as an expert by knowledge, skill,
experience, training, or education may testify thereto
in the form of an opinion or otherwise. N.J.R.E. 702. In
addition, New Jersey Rule of Evidence 703, Bases of
Opinion Testimony by Experts, The facts or data in the
particular case upon which an expert bases an opinion
or inference may be those perceived by or made known
to the expert at or before the hearing. If of a type
reasonably relied upon by experts in the particular
field in forming opinions or inferences upon the subject,
the facts or data need not be admissible in evidence.
N.J.R.E. 703.
The concept of net opinion was addressed in the
matter of Bucewlew v. Grossbard, 87 N.J. 512, 516
(1981). In that matter, the Court set aside a jury

22
verdict in favor of the Plaintiff and entered judgment
for the defendant holding that the Plaintiff’s expert had
rendered a net opinion. Id. at 516. The courts have
found that when the expert has offered merely a net
opinion, there is no basis to submit this matter to the
jury. Parker v. Goldstein, 78 N.J. Super. 472 (App.
Div.). The essence of the net opinion rule is that an
expert’s rendering of bare conclusions which are not
supported by factual evidence is not admissible and it
is often because there is a failure to establish a causal
connection between the act or the incident which is the
basis for the complaint and the injury or resultant
damage. Bucewlew supra at 524. See Castroll v.
Franklin Township, 161 N.J. Super. 190, 193 (App. Div.
1978); Stanley Co. of America v. Hercules Powder Co.,
16 N.J. 295 (1954); Rempfer v. Deerfield Packing Corp.,
4 N.J. 135, 145 (1950). In Townsend v. Pierre, the
Supreme Court of New Jersey addressed the issue of a
net opinion and found that the expert had rendered a
net opinion as the opinion was not based on the facts in
evidence. Townsend v. Pierre, (A-2-13) (072357) (2015).
The net opinion rule is based on N.J.R.E. 703 which
prohibits the admission of expert conclusions into
evidence when there is a failure to base the conclusions
on the facts of the case or other data. Id. The net
opinion rule requires that the expert provide the why
and wherefore that supports and buttresses the opinion
rendered and mere conclusions are not acceptable.
Borough of Saddle River v. 66 E. Allendale, LLC 216
N.J. 115, 144 (2013) There is no requirement that the
expert present an opinion in a particular manner which
opposing counsel deems to be acceptable or a manner
which is preferred by opposing counsel, however, what
is required is that the expert be able to identify the

23
factual bases for the opinion and conclusions, explain
the methodology used and then demonstrate that the
factual bases and methodology employed are reliable.
Townsend supra at 18. The court concluded that to
avoid the finding of net opinion as to the expert report,
the expert opinion must be grounded in facts or data
that is derived from (1) the expert’s personal
observations or (2) evidence admitted at trial, or
(3) data relied upon by the expert which is not
necessarily admissible in evidence but which is the
kind of data which is normally relied upon by experts.
Polzo v. County of Essex, 196 N.J. 569, 583 (2008).
In the instant matter, George Sosnowski rendered
an opinion as to liability which was based on his
knowledge, skill, experience, training as well as his
education and rendered an opinion based on the record
before him and data relied upon by experts in his field.
His opinion was based on facts, details and the record
in this case and it was error for the Court to rule that
his opinion constituted a net opinion. The Court in
rendering this decision did not explain what the ruling
that the expert report of Sosnowski was based upon nor
was there citation to any case law to support the
ruling. The summary judgment requirements set out at
R. 4:46-2(c) require that the Court in making a finding
on the motion for summary judgment must state what
case law was relied on when making the ruling and
this was absent from the court ruling on summary
judgment in this case.
George Sosnowski provided a liability report and set
forth explicit details of why both Society Hill at
Droyers Point Condominium Association and

24
Landscape Maintenance Service were liable. George
Sosnowski delineated in his report what he relied on
from the record and the facts in this case which
included weather reports, Answers to Interrogatories
from Plaintiff and Defendants, the Investigative Report
provided by the Jersey City Police Department,
deposition transcripts of the Plaintiff, deposition
transcript of the fact witnesses and deposition
transcripts of the Defendants, the Contract in place
between Society Hill at Droyers Point Condominium
Association and Landscape Maintenance Service, as
well as the weather report rendered by Forensic
Weather Consultants which established the weather
conditions on the date of injury, March 5, 2015.
(Pa280, Sosnowski Expert Report, pp. 4-5).
Sosnowski provided a concise Statement of the Incident
in his 26 page report which was based on the factual
record. (Pa280, Sosnowski Expert Report, pp. 6-8).
George Sosnowski noted at page 17 of his report that
“the conduct of the owner and employees of Droyers
Point at Society Hill, as well as the owner and
employees of Landscape Maintenance Services, violated
the following written standards and practices that
address maintaining parking lots and walkways. The
standards and practices noted were the New Jersey
Administrative Code, 2014, specifically Title 5.
Community Affairs at Chapter 10 which addresses
Maintenance of Hotels and Multiple Dwellings,
N.J.A.C. 5:10(2014). At N.J.A.C. 5:10(a) it reads, the
exterior of the premises and all structures thereon
shall be kept free of all nuisances, unsanitary
conditions, and any hazards to the safety or health of
occupants, pedestrians and other persons utilizing the
premises, and any of the foregoing conditions shall be

25
promptly removed and abated by the owner or
operator. It shall be the duty of the owner or operator
to keep the premises free of such conditions which
include but are not limited to the following: 3. Loose
and overhanging objects and accumulations of ice and
snow which by reason of location above ground level
constitutes a danger of falling on persons in the vicinity
thereof; 4. Holes, excavations, breaks, projections,
obstructions, litter, icy conditions, un-cleared snow and
excretion of pets and other animals on paths, walks,
driveways, parking lots and parking areas and other
parts of the premises. ...N.J.A.C. 5:10(a)(3)and (4). In
analysis of this matter, George Sosnowski set forth the
other data relied on in the snow removal industry
which also included the New Jersey Administrative
Code, specifically N.J.A.C. 5:10-6.4, the BOCA/NBC
Property Maintenance Code/1993 which is the
predecessor to the International Property Maintenance
Code, the System Requirements for Snow and Ice
Management Services from the Accredited Snow
Contractor Association ANSI/ASCA A-1000-2014 where
Identification of Hazardous Conditions is set out at
4.1.3.2. Sosnowski also relied on a nationally
recognized publication entitled, “Managing Slip, Trip
and Fall Risks in Snow and Ice Prone Regions.” This
tome makes specific reference to the responsibilities of
the property owner, management of walking surfaces
and what must be done to address main entrances and
lobbies. (Pa280, Sosnowski Expert Report, pp. 1720).
George Sosnowski also relied on his vast experience
in managing snow in snow removal communities where
the seasonal snow level was as much as 70 inches.

26
George Sosnowski had sixteen years of experience in
snow removal and possessed Certification which is
Certified Safety Professional which certification comes
from the accredited snow contractors association. In
addition, George Sosnowski had 27 years of experience
as a commercial/residential property manager which
gave him insight into evaluating the conditions that
contribute to accidents and which in this case allowed
him the ability to determine the conditions which
contributed to the fall and injury experienced by the
Petitioner. (Pa319, Sosnowski Curriculum Vitae).
The case law in New Jersey requires and supports
the position that in rendering expert opinions that
reliance be placed on analysis of the facts and
application of relevant codes which was done in this
case. It is expected that an expert will rely on not only
the facts but also the accepted codes and standards in
an industry. The court accepted the use of safety codes
to buttress expert testimony and noted that this usage
of safety codes provides support for the expert’s
discussion in the opinion of the proper standard of care.
McComish v. DeSoi, 42 N.J. 274, 282 (1964). In a later
case, the Court reaffirmed the position that experts can
place reliance on accepted and recognized safety
standards and explain the relevance of the standards
and codes to the jury when rendering an opinion on the
witness stand. Smith v. Kris-Bal Realty, Inc., 242 N.J.
Super. 346, 350-352 (App. Div. 1990). Sosnowski relied
on the safety standards, practices in the snow removal
community and the codes set forth by ANSI/ASCI in
rendering his expert report and made the connection
between these standards and codes and the events on
the date of March 5, 2015 which resulted in the

27
catastrophic injury sustained by Petitioner. The court
ruling that Sosnowski rendered an expert report which
was a net opinion was glaringly in error based on the
report of this expert which was detailed, factual, which
illustrated the negligence of the Defendants and made
a causal connection between this negligence and the
injuries sustained by the Petitioner.
George Sosnowski provided the why and wherefore
in rendering his expert report in his Professional
Opinion at the conclusion of his report based on the
facts of the case and applied his experience, training,
expertise, knowledge and skill. George Sosnowski in
rendering his expert report provided the following
conclusions based on his experience. Sosnowski wrote
that he based his opinion on the materials reviewed,
his 16 years of experience in the commercial/residential
snow and ice management industry and his
membership in the Snow and Ice Management
Association as a Certified Snow Professional where he
has C certification by the Accredited Snow and Ice
Contractor’s Association. Sosnowski also relied on his
27 years of experience in management of both
commercial and residential communities where he has
had responsibility for over 168 properties. Sosnowski
also pointed out that he has in his work experience
designed snow removal plans in areas where the snow
fall may be as much as 70 inches per season and has
expertise in management of such locations. (Pa280, pp.
25-26, Sosnowski Expert Report Opinion, pp. 21-26).
The Defendants failed to show why this expert
report should be considered a net opinion. The Court
failed as well in explaining the basis for the ruling that

28
the expert report was in the Court’s view a net opinion.
That the Defendants did not like the expert report is
irrelevant. The Defendants had the opportunity to
depose George Sosnowski and failed to do so.
Misunderstandings if any held by the Defendants could
have been made clear had the Defendants deposed
Sosnowski.
It is requested that the Petition for Writ of
Certiorari be granted and that the decisions made at
the state courts be vacated with this matter remanded
to the trial court to proceed to trial for adjudication on
the merits of the case.
POINT IV
THE TRIAL AND APPELLATE COURTS
IGNORED THE COMMON KNOWLEDGE
DOCTRINE WHICH WAS APPLICABLE TO
THIS CASE AS THE ISSUE OF SNOW
REMOVAL IS NOT TECHNICAL NOR
COMPLICATED
AND
THE
CONSEQUENCES OF THE FAILURE TO
REMOVE SNOW AND ICE IS WITHIN THE
UNDERSTANDING OF THE AVERAGE
PERSON
The doctrine of common knowledge permits
exception to the general rule; when it is applied, expert
testimony is not needed to establish the applicable
standard of care. Schueler v. Strelinger, 43 N.J. 330,
345 (1964). The common knowledge doctrine is an
exception to the need to have an expert explain and
testify in court against a licensed professional and is
the standard applied in an ordinary negligence case.

29
Atkin v. Bridgeway (N.J. Super. 2014) In cases where
the common knowledge doctrine is used, the negligence
under discussion is not related to a matter technical in
nature, but involves situations where due to the
Defendant’s carelessness, negligence is readily
apparent to the person of average intelligence and who
also has lived an ordinary experience. Rosenberg v.
Cahill, 99 N.J. 318, 325-326 (1985). In cases where
common knowledge doctrine is employed, the common
knowledge of the jury is sufficient to allow and enable
the jurors with their ordinary understanding of things
and ordinary experience to determine the defendant’s
negligence without the need for an expert. Estate of
Chin v. St. Barnabas Med. Ctr., 160 N.J. 454, 469
(1999). The jurors in applying the standard of care
results in there being no need to have expert testimony.
Sanzari v. Rosenfeld, 34 N.J. 128, 141 (1961). Because
the common knowledge of lay people is not infallible,
the remedy for inaccuracy is to allow those persons that
dispute the common knowledge to produce proof to the
contrary. Klimko v. Rose, 84 N.J. 496, 504 (1980).
In the instant matter, the negligence being
discussed and which is at the center of this case is
negligence that the ordinary citizen would be able to
understand. The issues under discussion, snow, snow
removal, the consequences of the failure to remove
snow and the consequences of the failure to apply deicer are issues that the average citizen can understand.
The ordinary citizen has knowledge about what may
happen to someone who is exposed to roadways where
there has been a failure to plow and treat the grounds.
As a result of this, the common knowledge doctrine was
a vehicle by which the Court could have continued this

30
matter as an expert report was not necessary to
continue this case of ordinary negligence. While the
expert report was instrumental in explaining some of
the technical aspects of snow removal as well as the
laws, statutes and codes involved in snow management
and removal which also established liability, the Rules
and Regulations of Society Hill at Droyers Point set
forth in everyday language information that the
residents at Society Hill needed to know about snow
removal there and the process to be followed. The
Society Hill Rules and Regulations discussed snow
removal in very basic terms so that the average
resident could understand the process and how snow
removal would be addressed in their community.
(Pa345, Society Hill at Droyers Point Rules and
Regulations) In light of the fact that the case was
dismissed claiming that the expert provided a net
opinion, the common knowledge doctrine provided a
basis for reinstating the case and having the jury
determine the issues in this case. The Court ignored
this doctrine as well as the number of other bases
wherein liability of the Defendants was shown
including the expert report which was not a net opinion
and the contract between Society Hill and Landscape
Maintenance which was not performed by Landscape
Maintenance.
It is requested that the Petition for Writ of
Certiorari be granted and that the decisions of the
state courts be vacated and that this matter be
remanded to the trial court to proceed to trial for
adjudication on the merits of the case.

31
CONCLUSION
The Petition for Writ for Certiorari should be
granted.
Luretha M. Stribling
Counsel of Record
Luretha M. Stribling, LLC
133 Westfield Avenue, Suite 4
Clark, NJ 07066
(732) 956-0010
lmstribling@verizon.net
Counsel for Petitioner
Dated: July 8, 2019

